No. 19-454

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, ET AL.,

Petitioners,
Vv.

COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF AMICI CURIAE
NATIONAL LEAGUE OF CITIES,
UNITED STATES CONFERENCE OF MAYORS,
INTERNATIONAL CITY/COUNTY
MANAGEMENT ASSOCIATION, AND
INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,143 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

  

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
